Department of Health and Hums   Services

        OFFICE OF
   INSPECTOR GENERAL




REVITALIZING THE COMMUNITY
     SUPPORT PROGRAM
                       OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ @HS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the OffIce of Audit Services, the
OffIce of Investigations, and the Office of Evaluation and Inspections. The OIG also informs the
Secretary of HHS of program and management problems and recommends courses to correct them.

                           OFFICE OF AUDIT SERVICES

The OIG’SOffIce of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations in order to reduce waste, abuse, and mismanagement and to promote
economy and efficiency throughout the Department.

                           OFFICE OF INVESTIGATIONS

The OIG’S0ft7ce of Investigations (01) conducts criminal, civil, and administrative investigations
of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of 01 lead to criminal convictions, administrative
sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud control units which
investigate and prosecute flaud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION AND INSPECTIONS

The OIG’SOffIce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The findings and recommendations contained in these inspection reports
generate rapid, accurate, and up-todate information on the efficiency, vulnerability, and
effectiveness of departmental programs.

This report was prepared under the direction of William Moran, the Regional Inspector General
for the Office of Evaluation and Inspections, and Natalie Coen, Deputy Regional Inspector
General, Office of Evaluation and Inspections, Region V. Participating in this project were the
following people:

Region V                                                                    Headauarters

Barbara Butz	                                                               Susan Hardwick
                                                                            David Wright
    I
        Department of Health and Human Services

                OFFICE OF
           INSPECTOR GENERAL




        REVITALIZING THE COMMUNITY
             SUPPORT PROGRAM




I               m   1993   OEI-05-92-O0120
             EXECUTIVE                             SUMMARY

PURPOSE
To assist the planning efforts of the Center for Mental Health Services by gathering the
perspectivesof key stakeholders about the Community Support Program.

BACKGROUND

On October 1, 1992, the Alcohol, Drug Abuse, and Mental Health Administration, within
the Public Health Service (PHS), was reorganized into a new agency called the Substance
Abuse and Mental Health Selviccs Administration (SAMHSA). Within SAMHSA, the
new Center for Mental Health Services (the Center) is charged with coordinating the
Federal role in the prevention and treatment of mental illnesses and promotion of mental
health. It also administers severaI grant programs, including the Community Support
Program (CSP).

Created in 1977 by the National I@tute of Mental Health (NIMH), CSP was designed to
assist States and communities in improving opportunities and seMces for adults with
seriously disabling mental illnesses. Funded at about $12 million for Fiscal Year (FY)
1993, CSP provides grants to State mental health authorities for services research
demonstrations, and projects involving primary consumersl and fties       in the
development of services. It aiso provides grants to technical assistance resource centers.

We were requested by the Center to assist them in identifying t%turedirections for the
Community Support Program, given the new mission and mandate of the Center. We
spoke with 124 persons nationwide for this study: Federal and congressional staff,
researchers, profwsionals, and providers; State commissioners and CSP directors;
consumer and family groupq CSP grantees; and others.

FINDINGS

While the questions in this study were about CSP, most of the findings and
recommen&tions relate more broadly to the Center. This is because most respondents
quickly went beyond CSP to talk about the Center, or talked interchangeably about the
both. They believe that CSP has laid a strong conceptual foundation for the Center’s
activities. They have many notions of how the Center should apply the philosophy and
principles of CSP to its other activities in the future.

The greatest impact of (XP has been in changing attitudes and perceptions about
serving adults with severe mental illnesses, rather than bringing about the widespread
development of comprehensive community-based services.


       1 Defined as ex-patients, or as   current and former   users of mental health services.

                                               i
Respondents say that to provide strong Federal leadership on behalf of persons with
severe mental iUneases,the Center should adopt the principles of CSP -
rehabilitation, reeovery, and integration into the community - as its cornerstone.

People want to see the Center’s agenda fbcused on the implementation of comprehensive
community-based services. They seek strong linkages between CSP and other Center
programs, and between the Center and other organizations.

Respondents believe that a n@or thrust of the Center should be technical assistance
to help States implement comprehensive community-based services.

The call is overwhelming for technical assistance that fbcuses more on consultation and
less on written information.

Reapondentacall for the Center to redefine and revitalize CSP demonstrations.

People agree that evaluation for future demonstrations should be strengthened, combining
rigor with pragmatism.

Consumer and family involvement is seen as valuable, but most respondents say a
more strategic focus for thii part of CSP is now needed.

The majority view is that the Center should refocus this part of CSP, and that they should
evaluate consumer and family involvement. People want to know more about how these
g~ups can help improve the accessibility and quality of comprehensive community-based
services.

RECOMMENDATIONS

In implementing the concepts of CSP on behalf of persons with severe mental illnesses,
we recommend that the Center take the following steps.

Develop a strategic plan for the next 3 years.

The plan should focus on the implementation of comprehensive community-based mental
health servim. It should include a national policy agenda and strategies for the Center’s
most important program activities. It should contain objectives, timetables, and criteria to
measure the impact of the Center’s activities on improving the accessibility and quality of
comprehensive community-based services for persons with severe mental illnesses.

Broaden ita constituency and maintain strong linkages with agencies and
organizations within and outside government.

Many respondents believe that CSP has become overly focused on certain constituents to
the exclusion of others. We recommend that the Center broaden its base. It should
involve a wide variety of constituents in developing and carrying out the strategic plan. It



                                             ii
should also maintain on-going relationships with a host of organizations and constituents at
Federal, State and local levels.

Develop a strategy to provide more practical technical assistance to the field, in
addition to the dksemmation of written information.
                       �




The Center should ensure that technical assistance is provided by individuals with expert
knowledge of programs and experience in implementing comprehensive community-based
senices.

Incorporate practical yet reliable evaluation methodologies into CSP demonstrations
of services*

Respondents need reliable information on effective community-based services. The Center
should conduct CSP demonstrations which evaluate the cost, process, and outcome of such
services on the lives of clients, and employ the most rigorous designs applicable to
address the questions being asked.

COMMENTS
The PHS commented on this repo~, the fill text of their comments is in Appendix A.
They concurred with our recommendations and described steps taken to implement them.
We thank them for their comments.




                                              #..
                                              111
                      TABLE                 OF         CONTENTS

                                                                                                        PAGE

=EcuTwE           SUMMARY



INTRODUCTION . . . . . . . . . . . . . . .             . . . . . . . . . . . . . . . . . .- . . . . . . ...1

FINDINGS       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   . . ...4	

  ImpactofCSP        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...4	

  Federal Leadership and CSP          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...5	

  Technical Assistance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7	

  Demonstrations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         .   9


  Consumer and FamiiyInvolvement              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11	

RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12	

 Develop aStrategic Plan . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12	

 Broaden Center Constituency . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12	

 Provide Assistance tothe Field . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13	

 Improve Evaluation ofDemons@tions                . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13	

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..            A-l
                           INTRODUCTION


PURPOSE

To assist the planning efforts of the Center for Mental Health Services by gathering the
perspectives of key stakeholders about the Community Support Program.

BACKGROUND

On October 1, 1992, pursuant to Public Law 102-321, the Alcohol. Drug Abuse, and
Mental Health Admir&tration within the Public Heal~ Service was’reorganized into a new
agency called the Substance Abuse and Mental Health Services Administration
(SAMHSA). Two centers in SAMHSA target substance abuse services. The new Center
for Mental Health ServiceS (the Center) is charged with coordinating the Federal role in
the prevention and treatment of mental illnesses and promotion of mental health. It also
administers several grant programs, including the Community Support Program (CSP),
child and adolescent mental health grants, grants for the benefit of homeless individuals,
for State protection and advocacy and human resource development programs, and mental
health seMces block grants. The Center also coordinates evaluations, assessments, and
policy studies relevant to mental health services. The National Institute of Mental Health
_         ~fis _nsibfity       for mental health research, including seMces research.
             .
           unatv-tt        RVIZ-

Created in 1977 by NIMH, CSP was designed as a pilot program to stimulate and assist
States and communities in improving opportunities and services for adults with seriously
disabling mental illnesses. Initially CSP was fimded through contracts with State mental
health agencies. Funding was converted in 1980 to grants, with a focus on State systems
change. Today CSP is funded at about $12 million for FY 1993.

The CSP followed on the heels of the reinstitutionalization movement and was the first
FederaLinitiative devoted exclusively to improving care of persons with severe mental
illnesses in the community. Its fimdamental premise is that such individuals can be helped
to live productive lives in the community. Prior to CSP, the focus was on mental health
treatment alone. A new concept, or model, called the “community support system” was
developed within CSP as a basis for planning and organizing seMces for this population.
It reflects an integrated, comprehensive system  ofcare,   including not only mental health
services but an array of rehabilitation and social services as well: client identification and
outreach; crisis response serviax; housing; income support and benefits; health care;
rehabilitation, vocational training and employment assistance; alcohol and/or other drug
abuse treatment; consumer, f~y,       and peer support; and protection and advocacy.

Currently, CSP promotes the development of community seMce systems primarily
through grants to State mental health authorities. The two major thrusts are


                                               1
demonstrations, and statewide service system improvement projects to involve primary
consumers and families in the planning, provision, and assessment of services. A third,
smaller, CSP emphasis is grants to resource centers that provide technical assistance on
housing, consumer self-help, and rehabilitation research and training. All States have
been CSP grantees at some time during the life of the program.

The population of concern for CSP is aduks with severe mental illnesses: “individuals 18
years and older with a severe and persistent mental disorder that seriously impairs
functioning in the primary aspects of daily living such as interpersonal relations, living
arrangements, or employment. ” According to the 1989 National Health Interview Survey,
as many as 4 to 5 million adults in the U.S. suffer from severe mental illnesses.

From 1955 to 1985, large State institutions reduced their patient population by 80 percent.
Now, according to projections in the 1989 National Heahh Interview Survey, about two-
thirds of the severely mentally ill population reside in the community. A report by the
Federal Task Force on Hopelessness and Mental Illness notes that as a group, this
population is younger, more heterogeneous - including more minorities - and more
troubled than in the past. It includes many people in their 20’s and 30’s who have spent
little or no time in an institution. Their incidence of hopelessness, and contact with the
criminal justice system, have been on the rise.

Nationality, about 60 percent of State mental health finding still goes for in-patient care
rather than community-based services, even though the majority of this population resides
in the community. The Federal share of funding for services remains small compared to
the State and local shares. For example, in 1985, States supplied over 78 percent of the
funding to support State mental health agencies; the remainder was provided by Federal
sources including block grants, Medicare, and Medicaid.

One of the most important national issues which could affect health and mental health
services for this population is national health care reform. The extent to which mental
health services are a part of this reform is not yet known, but it could have a significant
impact on the Center’s programs.



The Mental Health Sewices block grant, formerly part of the Alcohol, Drug Abuse, and
Mental Health Services block grant, is the largest program at the Center providing fhnds
for servica for this population, with an appropriation of some $280 million for FY 1993.
Comprehensive State mental health planning requirements, which stem tim Public Law
%660, are now an integral part of the block grant. States are required to submit both
annual plans and implementation reports.

The Center also fhnds two programs for homeless persons. Projects for Assistance in
Transition from Hopelessness, a formula grant program funded at about $30 million in
FY 1993, serves homeless persons with m&@l ;lln;sses, including those with substance
abuse disorders. Access to Community Care and Effective Services and Supports grants,


                                              2
funded for the first time in FY 1993 at approximately $22 million, require States to
implement an integrated set of services to meet the needs of homeless severely mentally ill
and/or substance abusing persons. The program resulted from a recommen&tion by the
Federal Task Force on Hopelessness and Severe Mental Illness; the Task Force was
created by the Secretaries of the Departments of Housing and Urban Development (HUD)
and Health and Human Services (HHS), and chaired by NIMH.

Another related program in the Center is the State Human Resources Development
Program, which provides grants to States to develop and disseminate knowledge and
technology related to human resource development issues and problems.

Other Federal programs outside the Center provide significant fimding for this population.
In HHS, Supplemental Security Income and Social Security Disability Insurance in the
Social Security Administration (SSA) provide income. Medicaid, in the Health Care
Financing Administration (HCFA), fimds health care, case management, and other
community-based services. Housing programs in HUD, and vocational rehabilitation
programs in the Department of Education (_E.D.),are two other examples.

SCOPE AND METHODOLOGY

To help guide planning efforts, the Center requested our assistance in gathering the
WSPCZtiVeSof a vfiew of stiholders on the accomplishments, weaknesses, and fhture
direction of CSP. We did not conduct a formal evaluation of the program.

Following a review of literature, we spoke with 124 persons nationwide between October
and December 1992: persons ffom the Office of the Assistant Secretary for Health, the
Center and NIMH: congressional sti, researchers; mental health professionals and
providers; State mental health commissioners (“commissioners” in this report) and CSP
directors; consumer and fdy      groups; present and former CSP grantees; persons from
foundations and other national organizations; and others. Some responded to our
questions in writing, but we talked to the majority by telephone or in person.

We spoke with consumers and fmy members at a conference of CSP service system
improvement grantees in October. We visited Dane County (Madison, Wisconsin) in
December to observe programs, not funded by CSP, which are nationally renowned for
their approach to serving this population; we talked to providers and consumers there.

We asked the following questions: (1) What have been the major accomplishments of
CSP, and have there been problems associated with it?; (2) In the future, what one
problem relative to community services for people with severe mental illnesses is it most
important for CSP to address, and why?; (3) Would you change the way CSP is
structured, administered or ftmded (assuming the level of finding remains unchanged)?;
and (4) What role should CSP play relative to other Center programs?

This inspection was ccmducted in accordance with the Interim Standardsfor Inspections
issued by the President’s Council on Integrity and Efficiency.


                                             3
                                    FINDINGS


The findings in this report are based on the opinions of 124 persons with a wide range of
experience rdative to adults with severe mental illnesses.

Readers will note that while the questions in this study were about CSP, most of the
findings and recommendations relate more broadly to the Center. This is because most
respondents quickly went beyond CSP to talk about the Center, or talked interchangeably
about both. They believe that CSP has laid a strong conceptual foundation for the
Center’s activities. They have many notions of how the Center should apply the
philosophy and principles of CSP to its other activities in the fhture.

The greatest impact of CSP has been in changing attitudes and perceptions about
serving adults with severe mental illnesses, rather than bringing about the widespread
development of comprehensive community-based services.

Respondents identified a number of strengths and weaknesses associated with CSP. In
general, comments reflect the view that the program had its greatest impact before the
mid-1980’s, when they say that support from NIMH waned in favor of biomedical
research.

Respondents CIWUCSP with creating a new conceptual f~ework for serving adults
with severe mental illhesses, which has tien mot across the count~.

We found strong agreement that a great accomplishment of CSP was that it articulated a
philosophy of comprehensive community-based care for adults with severe mental
illnesses. People praise CSP for providing Federal leadership on behalf of this population
and say it “stirred things around” by emphasizing new thinking and creativity. One of the
most important results of the cdaboration between Federal staff and others outside
government was the development of the Community Support System (CSS) concept, which
conveyed the importance of providing social welfare supports along with mental health
treatment.

The consensus view is that because of Federal leadership via CSP, there is now broad
recognition of the value of comprehensive community-based services for persons with
severe mental illnesses, and the CSP philosophy and the CSS have been accepted across
the country.

However, d appeam that (3P accomplished less in leading to the widespread
implementation of the comprehensive community-based servkes it envisioned.

The question of how much CSP has contributed         to widespread   implementation   of
community-based   services   is more difficult to answer.




                                                4	
Many people believe that CSP has helped implement new services. State CSP directors
credit the program with driving the development of new senkes with its emphasis on
networking, information dissemination on models, demonstrations, and consumer
involvement. Commissioners, many of whom have been involved with CSP for years and
whose States have been CSP grantees, praised the program, especially in the early years,
for its “vision,“ “moral leadership, ” and ‘extraordinarily effective use of a small amount
of money to catalyze and accelerate a formative movement. ”

Others were more restrained but also credited CSP with helping establish new services.
The program “single-mindedlypromoted the development of community semice systems.”
Funds were targeted at strategic, change-oriented activities and represented the only
Federal dollars with the flexibility to respond to emerging issues and needs in the field.
People say that “CSP has become synonymous with innovation, wproviding funds for
commissioners to try new services that their States would otherwise not have funded.
Staff spread the word about new seMces by highlighting grantees and their activities at
national conferences, in speeches, and in reports disseminated to the fieid.

Praise notwithstanding, however, people described a number of factors that weakened the
impact of CSP, particularly after the mid-1980’s: inadequate funding to accomplish
widespread change; inadequate technical assistance; an excessive focus on consumers and
families to the exclusion of the treatment community; and turnover of State and local
leadership (commissioners, especially) who could implement change. Another weakness -
poor evaluation of the demonstrations - is discussed separately in this report.

In summary, it seems plausible that CSP has been a catalyst in introducing new ideas
about serving severely mentally ill adults, and in some States where key people were
receptive to these ideas, introducing new services. However, since the vast majority of
State finding nationally still goes to hospital rather than community care, it is difficult to
conclude that States have wholeheartedly endorsed community-based services, whether in
response to CSP or not. We suspect that some respondents, by virtue of their long and
close relationship with CSP, may believe that it has had greater impact nationwide than is
actually the case.

Respondents say that to provide strong Federal leadership on behalf of pemons with
severe mental illnesses, the Center should adopt the principles of CSP -
rehabilitation, reeovery, and integration into the community - as its cornerstone.

For the respondents in this study, the most important role the Center can play is to widely
promote the CSP concepts of rehabilitation and recovery for persons with severe mental
illnes~, and push for the greatest possible integration of this population in the
community.

People want to see the Center’s agendiabased on CSP principles and focused on the
implernenttxtionof contpwhenm”vecommunity-based sem”ces.

Respondents say unequivocally that the Center should adopt CSP principles as its guiding


                                               5
principles. In addition to the philosophy of rehabilitation and recovery, the principles
respondents mentioned most were: an unrelenting focus on the severely mentally ill
population, emphasis on creativity and new, innovative services, a flexible approach to
adapting to State and local needs, and involvement of consumers and families.

People expect the Center to be in the forefront of the debate on nationaI issues affecting
persons with severe mental illnesses. In “riding the wave of newness,” as one person put
it, respondents want the Center to develop a strategic agenda setting forth the policies and
priorities around which all of its programs will revolve. The most important priority,
they say, is the widespread implementation of services, for which CSP has set the stage.

They want CSP and other Center pmgnzms to be more clhsely integmted.

People see close collaboration and teamwork between CSP, homeless programs, the block
grant, and the Human Resource Development Program as important to creating
comprehensive community-based services for people with severe mental illnesses. They
say the Center should seek to model the kind of coordination and linkage among its
programs that the Federal Government requires of States.

Short of actually combining programs, which a number of respondents advocate, the
Center could use joint planning, and task forces or work groups, for these programs to
address cross-cutting issues and otherwise coordinate their activities. Comments show that
respondents think of CSP as the framework or “moral compass” of these other programs.
This was especially true of those, particularly the commissioners, who called for a
complete overhaul of the Human Resource Development Program, to better fit the CSP
mission and link the programs more closely.

Many people favor joining the block grant and CSP in some way, so the programs can be
used more strategically, together, to foster the development of new services. Besides the
general notion that the State plans should embody CSP principles, the most frequent
suggestion was that CSP dollars be used as an incentive, or “carrot, ” for States to fund
new initiatives directly related to State plan priorities. Respondents urged the Center to
tind ways such as this to provide incentives rather than penalties for States to develop new
seMces.

Other ideas about CSP and the block grant wm that: they be used together to promote a
“national policy agenda” designed to “revitalize= the mental health system; CSP
demonstrations should test and prove services which then could be implemented through
the block gran~ and, the results of CSP demonstrations be used as the basis for
establishing priorities, guidelines, or requirements attached to the block grant.

Xhey want the Center to establish strong, stmtegic linkages, using the inclusive,
colikbonzh”veapproach of CSP% eariy yearn.

In talking about CSP’S accomplishments, we noticed a tone approaching nostalgia in the
comments of people who have been involved with the program since its inception. They


                                             6
applaud the highly collaborative approach that CSP stafl took with people outside
government, especially in its early years. They urge the Center to U* the same approach
in establishing a wide variety of linkages both within and outside government to carry out
its mission.

In the Federal arena, respondents call for the Center to collaborate with a host of agencies
to represent the severely mentally ill population on key national policy and finding issues,
to promote the CSP philosophy of rehabilitation, and to disseminate the results of
demonstrations on services to them. Center staff should have special expertise in the
programs most affecting the population, and linkages with HCFA, SSA, HUD, and E.D.
are particularly important. Some people view the Federal Task Force on Hopelessness
and Severe Mental Illness as a model for Federal interaction, with the caveat that what
really matters is whether the recommendations of the Task Force are implemented.

The issue of greatest urgency to respondents is clearly national health care reform. There
is great concern that the needs of this population will be overlooked unless the Center is
actively involved in the national debate on their behalf. On a positive note, some see CSP
concepts as compatible with the concept of managed care, which is being discussed today
in connection with health care reform.

In addition, respondents ask the Center to collaborate with many other organizations and
constituents, to bring about significant, lasting systemic changes in the balance between
institutional and community care for persons with severe mental illnesses. This includes
Congress; State legislators, governors, and heads of State Medicaid agenciw,
commissioners and the National Association of State Mental Health Program Directors
(NASMHPD); county governments; mental health treatment providers, including
community mental health centers (CMHC) and hospitals; human semice providers;
acadeti, foundations; and national organizations representing various constituents.

Respondents believe that a @or thrust of the Center should be technical assistance
to help States implement comprehensive community-based services.

Of all the issues in this study, technical assistance engendered the greatest agreement.
Two-thirds of all respondents say that technical assistance - in short, “getting good models
out to a broader constituency” - should be a major priority for the Center. They also see
human resource development as a key issue related to technical assistance.

l%e call is overwhekningfor a technical assistance effoti going beyond the
dissemination of wdten iqjlonnation.

People commented very favorably about CSP technical assistance before the mid-1980’s.
They say that the program funded people getting together in a number of ways to
stimulate cross-fertilization across the country about new ideas. Staff reached out to
States, asking how they could help. Respondents found learning conferences interesting,
stimulating, and inspiring. The program sent people to other States to observe new
services frost hand, giving them new ideas they went on to implement in their own States.


                                             7
It brought experts in to work with States, or held “common concerns” meetings where a
small group from several States could grapple with one particular issue.

The impact of technical assistance may have waned in recent years. We heard that
resource centers, while a good concept, reach relatively few people and over-emphasize
written information. Some people said that conferences too often “preach to the
converted” by including the same participants and consultants, over and over. State CSP
directors object that they do not meet separately to discuss issues germane only to them.

People want many things from technical assistance, but the bottom line is that the Center
should create a ‘do tank rather than a think tank, ” with more hands-on consultation and
less emphasis on writing and publishing, “teaching and preaching. ” Following are some
specific suggestions.

   �	     Bring more, and different, constituents together on a national, regional, or
          State-to-State basis.

   �	     Help commissioners and CSP directors strategize ways to bring governors,
          legislators, or State Medicaid agencies into the process of developing
          community services, since financing is such a key issue.

   �	     Broaden the circle of national experts drawn upon to provide technical
          assistance, to include more State and local players who have successfidly
          implemented services in the field.

   �	     Use technology (teleconferencing and interactive video were two examples)
          more, and more creatively.

   �	     Set up regional centers; or, examine the Centers for Disease Control or
          Agricultural Extension Service as models of effective approaches to technical
          assistance.

  �	      Provide more written information in summary form. State and local programs
          can not aHord journal subscriptions, and few staff in the field read journals.

Respondents also advocate an eqnwded human resoume devekbpment eflort to tnu”n
Wf in the de~very of comprehensive community-based services.

Respondents say that local implementation of new services is severely hampered by the
lack of staff adequately trained in providing community-based services. There is a strong
call for the Center to strengthen the Human Resource Development Program and
otherwise step up its efforts to address this problem, fwusing on certification, restraining,
and skill-building. Training is needed not only for mental health profmsionals such as
psychiatrists, nurses and social workers, but also vocational rehabilitation workers,
employment counselors and others who work with persons with severe mental illnesses in
the community.


                                              8
Respondents call for the Center to redefine and revitalize CSP demonstrations.

The CSP demonstration program has changed over the years. The earlier demonstrations
were pure services demonstrations, with little attention to the importance of evaluation.
Over the past 5 years, increasing efforts have been placed on improving the rigor of these
demonstrations. More recent studies therefore employ rigorous experimental designs with
control or comparison groups.

Respondents db not view demonstrations as a major accomplishment of CSP. Zhey say
tluat weUden”gneddemonsttuiions are still needed.

Opinion is mixed about the usefidmxs of past CSP demonstrations. However, many
respondents agree that, notwithstanding NIMH efforts to strengthen it, evaluation has   been
weak.

Some people praise early CSP demonstrations as the first, and only, source of information
about new services or as a “carrot” for States to try new seMces they would not
otherwise have fimded. They have found some of the information useful but also
acknowledge that evaluation was fm too weak. Others criticize them for yielding too little
empirical data, largely due to poor evaluation. This made it difficult, they say, for CSP
staff to respond to challenges about the vdldity or effectiveness of community-based
services, which in turn weakened the credibility of the program as a whole. In fact, a few
respondents went so fti as to criticize CSP for promoting, as “panaceas,” specific services
or models which were essentially unproven; case management was mentioned here. One
said further that the lack of reliable data on service eff~tiveness has meant that the
“replication and spread of new services has been remarkably slow.”

Respondents are hungry for demonstrations that identify “real solutions for real problems”
and ‘efficient, eff~tive models of service at a time of budget cuts. ” Most advocate a
broad, systems change focus, although there is some sentiment to continue to study
specific services (self-help and psychosocial rehabilitation were two examples) or sawices
for subpcqxdations, especially those suffering from both mental illnesses and substance
abuse.

There is a wealth of ideas on how future demonstrations should be focused and structured.
One suggestion is that the Center conduct a short term evaluation to document the
accomplishments and national impact of CSP on the development of services. The Center
would publicize the results, giving CSP public credit for the change it has brought about.

Following are a few of the many other suggestions we heard:

  �       Focus demonstrations on one or more “centerpiece” priorities or themes;

  s�      study new or cutting edge services, policies or ideas of national significance,
          looking for the next subjects of scientific research years down the road;



                                              9
   �	      replicate proven or promising services, to learn about implementing services in
           “real life” situations, and what outcomes they produce in the lives of clients;

   �       study services integration or linkage; and,

   �	     involve consumers for real, then validate how they help; look at their
          participation in policy development, planning, and service delivery, including
          self-help and other consumer-run services.

As for how demonstrations might be structured, respondents also had many ideas. Fund
them for up to 5 years, with “built-in self correction allowed” and the option to end them
at various intervals if grantees fail to meet interim goals. Include a staff training
component and evaluate this also. Test the same service in several sites in one State,
several States in a region, or several regions in the country. Require States to include
several counties, or to reconfigure their spending by putting more dollars into community-
based services.

Most respondents say that State mental health authorities should continue to be the
primary grantees. As the major players in State mental health policy and services, they
must be involved for systems change to occur. On the other hand, some favor working
from the bottom up in States where mental health services are greatly decentralind or
State mental health authorities are slow to embrace change. In such cases, they say, the
Center should fund local grantees directly, with some sort of State sign-off. They think
this might promote increased interest in community-based services at the State level.

Respondents urge collaboration between the Center and NIMH on planning
demonstrations. One view is that the Center should pickup where NIMH leaves off, that
is, conducting “effectiveness testing” of services researched by NIMH, focusing on how to
implement them. Another is that NIMH should research promising sefice models
emerging from Center demonstrations. The intent of such collaboration would be to foster
the implementation of services which have been proven eff~tive, and to promote studies
which meet State and local needs.

People say that evaluatiim forjkture demonstmtions should combine rigor with
ptugmatism.

Respondents agree that evaluation should document three things: client outcome (i.e. the
effectiveness of services in producing positive changes in the Iives of clients), the cost of
semices, and how services actually work. Some added that consumer input is especially
valuable in designing demonstrations.

On the subject of what constitutes “good” evaluation, people favor some sort of middle
ground, ‘the most rigorous design possible yet practical and applied.” It should be built
in up front by providers and researchers together and based on what services are needed
rather than what research question is to be answered. Given widespread praise for CSP’S
historical emphasis on creativity and innovation, we were not surprised to hear comments


                                              10
such as: “Replication isn’t always ‘scientific.’ Combine rigor with pragmatism and
creativity,” and, “CSP should loosen its tie but keep it on, and focus on the cutting edge. ”
Commissioners were particularly eloquent about striking a balance between the need for
new services, now, and the need for empirical data.

People are concerned that many States lack the technical ability to conduct good
evaluation and propose several ways to address this lack. One is to conduct evaluation
centrally with a group of experts established by the Center. Another is to provide
technical assistance on evaluation to prospective grantees, rather than after-the-fact which
is now the case. A third is to mandate strong linkages between State mental health
authorities and universities; this would increase State buy-in to the need for evaluation,
ensure that the services studied are the ones States value, and increase the chances for
replication by the State once the demonstration is over.

Consumer and family involvement is seen as valuable, but most respondents say a
more strategic focus for this part of CSP is now needed.

Respondents, including two-thirds of the State CSP directors and half of the
commissioners, credit CSP to a great extent with creating and nurturing the consumer and
family movements. They also say CSP provided valuable policy guidance and technical
assistance relative to these groups. Their view is that the activities of these groups have
led States, and those in the mental health field generally, to gradually adopt a community
support philosophy. People tend to see consumers as particularly important since, as one
put it, “they know what works and what doesn’t. This is what causes change. ”

People also believe that CSP has become “overidentified” with - that is, favors consumers
and families over others involved with CSP, or consumers over families, or even certain
consumers over others. This meant, they say, that CSP excluded and ultimately alienated
many in the treatment community, professionals such as psychiatrists, and providers such
as CMHCS and hospitals. The sense of many of the criticisms about overidentification
was that “no one gruup should define CSP. ”

Some people, especially State CSP directors, favor continuing this part of CSP for f-
that many incipient organizations - consumer organizations, especially - will die without
Federal fimding. The majority view, however, is that the Center should refocus this part
of CSP to bring about collaboration that produces “positive life outcomes” for persons
with severe mental illnesses. People suggested: a national “theme” for this part of CSP
related to strategic State issueq grants to develop the capacity of these groups to
participate in State policy development and planning, specifically; and fimding a national
consumer center or hiring consumers as Center staff. Many suggested focusing
demonstrations on consumer and family involvement.

A secondary theme is that no matter how consumers and families are involved, the Center
should ‘evaluate these efforts to find out if what they are doing works, and how.”
Respondents want to know more about how these groups can help improve the
accessibility and quality of services.


                                              11
                    RECOMMENDATIONS

This study shows that CSP stakeholders have strong expectations for the Center beyond
how it might alter CSP. Their fear is that without strong Federal leadership, the incipient
community support network developed during the last 15 years will weaken, placing
impossible demands on State and local governments and potentially leading to the
rehospitalhation of millions of people. They request information and assistance from the
Center to expand and strengthen that network. And they are eager to be included in
developing the Center’s mission and strategy.

In response to the findings in this report, we recommend that the Center take the steps
outlined below, The first recommendation is broad; the others provide more specifics
about how the Center should maintain a broad base, and implement technical assistance
and CSP demonstrations.

The Center should develop a strategic plan for the next 3 years.

The Center should develop a strategic plan focused on the implementation of
comprehensive community-based services. The plan should first include a national policy
agenda addressing legislative, regulatory, finding, and other issues affecting seMces to
persons with severe mental illnesses. In addition, it should include strategies to: provide
technical assistance conduct demonstrations of services; involve consumers and t%milies;
more closely integrate Center programs; and expand human resource development efforts.

The Center should establish objectives and timetables for each of the plan’s components,
and criteria to measure their impact on improving the accessibility and quality of services
for persons with severe mental illnesses. It is important for the Center to fmus its
activities on improving client outcomes.

The Center should broaden its constituency and maintain strong linkages with
agencies and organizations within and outside government.

This sttidy points out that many respondents believe that CSP has become overly focused
on certain constituents to the exclusion of others. They are asking the Center to broaden
its base, and to revive the inclusive, collaborative approach of CSP’Searly years.

We agree. First, we recommend that the Center involve a wide variety of constituents in
developing - and carrying out - its strategic plan. We recommend firther that they give
particular attention to refwusing - and broadening - the participation of consumers and
fties,    and the mental health treatment community. Secondly, the Center should
establish strong on-going relationships with Federal agencies, State and local governments,
NASHMPD, universities, foundations, and national organizations sewing this population.




                                             12
The Center should develop a strategy to provide more practical technid         assistance to
the field, in addition to the dissemination of written information.

This recommendation responds to the call from respondents for technical assistance. The
Center is charged with establishing an information clearinghouse. To complement the
clearinghouse, we recommend that the Center identify an office charged with providing
technical assistance to persons in the field. If placed at a high level in the Center, this
office would promote program integration by serving as the focal point for technical
assistance for all Center programs. Just as important, it would convey the message that
Center leadership consi&rs technical assistance focused on implementation to be a
plidy.

The Center should staff this technical assistance effort with individuals with expert
knowledge of Federal programs most affecting persons with severe mental illnesses, and
first-hand experience implementing comprehensive community-based services in the field.

In addition, we think that a summary of the information from past CSP demonstrations
would be helpful, not only summarizing what has been learned but identifying important
knowledge gaps which the Center could address in its strategic plan.

Demonstrations in CSP should incorporate practical yet reliable evakation
methodologies.

As noted in this report, respondents are eager for reliable information on effwtive
services. We recommend that the Center base CSP demonstrations on a strategic theme
or themes. They should develop a methodology, or methodologies, to evaluate the cost,
process, and client outcomes of semices, methodologies including consumer feedback on
outcome, and designs should be the most rigorous applicable to address the questions
being asked. Demonstrations should be for a period of up to 5 years, with the option to
discontinue at 2, 3 or 4 year intervals if grantees do not meet interim goals. We also
suggest that the Center consider requiring States to include a number of CQuntiesin their
demonstrations, to encourage local implementation of new services.

We agree with respondents that the Center and NIMH should collaborate with respect to
services demonstrations and services research.

COMMENTS
The PHS commented on this report; the full text of their comments is in Appendm A.
They concurred with our recommendations and described steps taken to implement them.
We thank them for their comments.




                                             13
APPENDIX   A




    A-1
=!4
‘%**
            DEPART&UN’z


                    f
                               OF        A HUMAN!WM!ES
                                    HEALTH                                           AMclinuhsuvlcg

                                                                                     Memorandum
ha(R        JuN”f1993r

                        As8istant WmBtary                  fos Health                                 !.




           the   Coannuntty-         SUP~rt        P~ti,      “ ‘0151-0!5=92~001Z0
  To       Acting       baPOCtOX         9ezla~l      , OS


           Attached       are       thffPu&lfc       Health Sen7ice c~tgf     On the uubject
           Zepoxt ,       we Cone           with     the repozt 8a Zammmendations and Oiir
           casament8delineate               tb      aotions. taken 0s planned to implement
           them.



       .
           Attachment


                                                                     .




                                                             A-2

     ~-                                                        .

    The carltes       fos Mental Health Servfeag (~      , **    i8 a
    c
     Jr  nistratiozxt      xegmated  that  01(3rwiew
                                                    1
           xmnt of PHS’ Substance Mae and llena ~ealti SexVices
                                                       the ComuaniW
    Suppost P%ogW#m (C!3P)to assist CMish idmt&f@$lg future
    &Z@CtL@n8 fQZ the Csp, giv~           m   new tisa&~   ~d  m&t8    Of
    CMiS.       We appreciate the effort that OXG made, and
    ptioularly tiah to acknowledgeOIG’a wiU.LnqnesSto assist
    us on such Shorn notice. It U appaxent that a tmaueadou
    amount of work wee involvedin oontamin~ ~               LOO key pessans
    Icnowhdgeableof the CSP.

    !Cha01C3mm     &deatifio8  changing  attittade8&   pgCOptiOn8
    about se=iag indivtduahg with wreze menta~ Umaa.         Also?
    Lt dLsoueee8 the aatual developmentof a eompreh~ive
�   ~ty-band         8e=@e system au the inten~      by-preduot of a
    aignlgieant dung.   in a~tudes    remultig m     pederal and
    State Ieademhip and -f fort8
    I* -id     have bem I@pti     w ZaHlY3Lgi%iiisrg?%iz?--s”
    components of tb CSP wexe mat   irithmat.Sal h     d~ing
    attLtudest the Ckmonasation gmnts, confemoes.  ..-    . Lntesauermv

    wosk~ 0s 6yatexachange @fforts:



    l,.	 Thm CMliSshould develop a stzategic      plan    fex the next
          3 yeara.


    We conm.     We agse* wLth the impoxtamcmof develdplng a
    nat~ona~ polioy a-      focused on issues affeotAng awwice to
    persons. w%*  am     mental illness and acknow3edti that CMHS




    91~ R~c~         tfoq
    2.    The CMHS 8houid broaden its con8t&tuen          and maintain

          Stxoag linkages with ag,nclas and 0~ a         Satfons   Withlll
          and outside the govemxuent.




                                      A-3

                                                                                               2




                                            Collaboxaticm

 fora aomss the nation ta an effok 6 madh its base.         We
 agree wA* the report that the m     a mm   s&ould  be baaed on
 CSP ~iXIC~ U,u and fmtaaed a IAo ~ !~~~           of oommunit~­
 bamd $ezv?cats. W. alsoagseethat cam     #hould be lxxthe
 ~ose~%ont ot the debata on national i88ueu affeoting pemon8
 WLth revere mental UZM88             �




 It 8ho@4  b~ noted tha~ ~~aiagly     SLgn.ificaxat Mzx&q.a
 among Fedozal agenoies have become the oomemton @Qfc?5s
 pm~ama.           Pos -2**         the ACCXSS (Maws               to ~
 and   Mfative Suppoz’ta
                      andSenicea)p=

  of Demoaatration @                   @maEy*ii!i          %#iYiiRn
  with rwponalbilf      a t!w‘%%#ia        -    --WIWY         -~                         of
  m-                  ioaxlt affiuatfona
          with Uf$rJi”Y                       With tlm Depmam3
. Housing aad Urbau Dewl         t, Agrto’ultumi#,   Siabor,  and
 Vetezaa#8 Affdrs,           as       as with      the  Health   care IMllalloing
 ~atxatim                and thgesOglew’&yy             ~gmtioxa               In
                                                                                �

 additfont       the    admiaM8                     ~ty          Mental Eealth
 Samiee SIQolcGreat, aad #m pm jeots for JkaBlstanc*
                                                   ia

 Zsanaitionfrom EomeAwanaaaFonuulat3xan*
 allowfos the
 develo~t          of    atzong   FedmlJState       mlaUonsMps.


 3*	   ‘lb   -  ahmdd develop a strategy to
       pXaOt&caA teubnioa~as8Smance to the
       to the dims-tim     of wsitten infozmaUoa.


We concw thae “heads on” te~caz        assi~ee     (~ the part OS

 w-)      *S often bdpful in the effost to aeate a ohanged

    tam of ~      fos SVMUU8      with s~      ~t~   $llnesa. We

aT’ae am    tdtdz tb ~        that thts assfitanoe ahouZd be
        fetezg aouplad with the di8mrUatfoa of tittwl
~=tim.          -     oont3aues to analyze wqs to prev$d~
twhniuaL assistants     is a more effectivemanam.
AdditiOmUy,  when pe~ttti                 w$thin   its       ma~          level,    W
hen made modest effozta to            augment the type and aamaat of
teohnical ami8tanoe provided.


4*	 Demonstiatlms in CSP sltoulci inco~ozata                         praC~Ca&       yet
    =mlQZ.  ~Luatiw    smthodologies                     �




                                          A-4

                                                                                     3



                                                                                          ..

We concus.      TM= xecoxmiendation has pa~$mlaz    rehmranca mid
upaaif~city     to tho future at C!SP. One CSP c%itical objective
$8 tha genexatfon of knowledge derimd fm               ml~~esigned and
Lnplement*ddemonstrations. Progmm staff               axe currently
identifying     specif$~   themes fo% demonswatims.             The
suggestion to cievelop      Lnter* goaz~ for **g               Continuation
4s Welcolns ,



0                     . Xt would have baen helptti to aepaxate
      out tha responses of d~ffexent constitumcies        and dr8w
      bpl$catio~      fxom them.   In reading the    eclfics that
      undexlfe   #tome of the xemxxmendati~r    ~t ? s elaar  that
      the miou8      constituencimahave diffexent,often
      confliatlnggoals fox the CSP. I* WOUld be beneficial
      fo~ the reportto acknowledgeand Mffmmtlate    these
      Cufferencms.

o	    m=JLtsu*     It is uncleae why Dane County in W2sCon8Ln
      was selected 88 tho sole loaatfon for a site visit. Dane
      County has nave% recaived any CSP fun-g   and was not
      recommended us an example     of    8 local~~    tilat     has   treed   CSP
      px$ncfples in developing8 community support Sywxzll.
      The%e era many othes sites that would have appropriately
      and usefully demonstratedthe impact at tlm Pedesal CSP
      effoxt.
o	      ae 11. P-aQh     t. Statementstn two sentences seem
      tO ba contzadiato~. The ~$rst sentence states that CSP
      has become “ovu~dentiti~” with...con8umem
      f-ilies   �The next smtence states that CS3?F 8
      “overidentifytig*with consumms ~    famizieq.




                                         A-5

                    —.
